          U.S. Department of Energy
          Office of Inspector General
          Office of Audit Services




Audit Report

The National Nuclear Security
Administration's Refurbishment of
the B61




DOE/IG-0697                         August 2005
REPORT ON THE NATIONAL NUCLEAR SECURITY
ADMINISTRATION'S REFURBISHMENT OF THE B61



TABLE OF
CONTENTS



            Project Management Controls Over the B61 Refurbishment


            Details of Finding..............................................................................1

            Recommendations ............................................................................5

            Comments..........................................................................................6


            Appendices

            1. Objective, Scope, and Methodology.............................................7

            2. Related Reports.............................................................................9

            3. Management Comments .............................................................11
Project Management Controls Over the B61 Refurbishment


Refurbishment       The National Nuclear Security Administration (NNSA) is at risk of
Project Schedule,   not achieving the First Production Unit (FPU) for the B61
Scope, and Cost     refurbishment within the original schedule and scope
                    specifications. NNSA was unable to reuse a key material in the
                    refurbishment which, in turn, delayed the design and testing of key
                    components and increased costs for research and development of a
                    substitute material. NNSA also experienced other delays that, in
                    our opinion, were avoidable. Specifically, we found that:

                       •   Completion of a key component milestone was delayed at
                           least 13 months due to inconsistencies in participating sites'
                           production schedules and,

                       •   Delivery of key production equipment was delayed as
                           much as 9 months due to the failure of project officials to
                           agree on the delivery schedule and problems with a
                           commercial vendor.

                    In addition, NNSA reduced the project scope by eliminating
                    testing against certain physical environments and had not
                    developed a valid cost baseline to control costs.

                                    Component and Equipment Delays

                    NNSA experienced delays in the design, testing, and production of
                    certain components and delivery of production equipment. For
                    example, the need to develop a substitute material led to delays of
                    about two years for the final designs of five components.
                    Consequently, nine of 10 component tests scheduled to be
                    accomplished between October 2002 and August 2004 were
                    delayed an average of 214 days each.

                    In addition, inconsistencies in production schedules led to re-
                    scheduling the completion of key components. Specifically, the
                    Integrated Master Schedule (Master Schedule) called for a critical
                    component to be completed by June 2003, yet Y-12's production
                    schedule indicated it would not be completed until October 2006
                    (4 months after the FPU date). After we brought the inconsistency
                    to their attention, management rescheduled the completion of this
                    milestone to July 2004, or 13 months after originally planned.




Page 1                                                               Details of Finding
         The refurbishment also experienced significant delays in
         equipment delivery. The project plan indicated that the
         refurbishment was dependent on the efforts of other NNSA
         programs to provide equipment to reconstitute production
         capabilities. However, agreement on production equipment
         delivery schedules was delayed as much as 16 months; and
         equipment delivery, in some cases, was delayed as much as 9
         months.

         NNSA management acknowledged that delays had occurred but
         maintained that it was not necessary to change the completion date.
         In responding to a draft of this report, NNSA officials asserted that
         equipment delays were partly caused by problems with their
         vendor, and the delays would not affect the ability of production
         sites to meet the FPU schedule. Because of inconsistencies
         between the Master Schedule and site schedules, we were not able
         to confirm this assertion. In addition, NNSA officials asserted that
         they had developed recovery plans but did not provide them to
         demonstrate how these plans would mitigate the delays so that the
         FPU date could be met.

                               Scope Change

         Although NNSA originally planned to test the B61 against certain
         physical environments, some tests will not be performed. In
         March 2004, an intra-Department of Defense memorandum
         requested the elimination of testing against certain physical
         requirements. Such scope changes are required by the project plan
         to be vetted and approved by the interagency Project Officer
         Group composed of representatives from the Department of
         Defense commands, the Air Force and NNSA. However, NNSA
         made this scope change without obtaining formal Project Officer
         Group approval. Laboratory project officials and Air Force
         personnel expressed concerns to us about how this scope reduction
         could affect the ability to utilize the weapon.

         NNSA stated that the scope change was not accomplished in
         accordance with the established process but contended that the
         Project Officer Group and the Design Review and Acceptance
         Group acknowledged this requirement change and subsequent
         impact. We found no documentation to support this contention.




Page 2                                                   Details of Finding
                                    Cost Baseline

             NNSA had not established a valid baseline to control the cost of
             the refurbishment. Initially, it estimated that the refurbishment
             would cost about $540 million. Currently, NNSA estimates that
             the refurbishment has decreased in cost to about $368 million,
             primarily as a result of the reduction in production units.
             However, these estimates:

                •   Omitted certain costs related to the project, such as the
                    manufacture of production equipment; and,

                •   Excluded production support costs after Fiscal Year 2005
                    but included these costs for prior periods.

             The project manager told us that he had concerns about the
             accuracy of the cost estimate and was unable to use it to manage
             the refurbishment.

             NNSA stated that certain costs were omitted since they were for
             purchases that may at some time in the future be used by other
             programs. However, DOE Manual 413.3-1 requires that cost
             estimates include all costs necessary to complete the project.
             Additionally, NNSA stated that a valid cost baseline existed, but
             its purpose was to report costs rather than to control costs. This
             statement contradicts established Federal requirements. The
             Office of Management and Budget Circular A-11 requires a
             documented, systematic process for program management, which
             includes the integration of program scope, schedule, and cost
             objectives, as well as the establishment of a baseline plan for
             accomplishing program objects.


Project      NNSA's project planning and management authority were
Management   not adequate to meet the refurbishment's original schedule,
Weaknesses   to ensure scope changes were justified, and to control costs.




Page 3                                                        Details of Finding
                                Project Planning

         NNSA did not ensure that the Master Schedule and site schedules
         were consistent. Project personnel stated that there had never been
         a validation of the Master and site schedules to ensure consistency.
         Further, while project personnel attempted to update the Master
         and site schedules quarterly, they were hampered by the lack of
         standardized scheduling software. The various sites used at least
         two different software programs; this lack of standardization did
         not allow for the automated reconciliation of inconsistent
         schedules, and necessitated using manual reconciliation processes.
         Those processes required a line-by-line manual review of
         schedules (some as long as 200 pages) that often resulted in logic
         errors.

         Also, project officials did not follow the process for approving
         scope changes. The B61 project plan required a Baseline Change
         Request and Project Officer Group approval to justify changes to
         the scope. NNSA, however, eliminated testing under certain
         physical environments but did not prepare either a Baseline
         Change Request or obtain Project Officer Group approval for the
         scope change. The project manager told us that the intra-
         Department of Defense memorandum requesting the change
         constituted the necessary approval. However, as previously noted,
         other project officials remained concerned about the effect of the
         scope change on the refurbished weapon. Such concerns should
         have been resolved through the Baseline Change Control process.

         Furthermore, project management did not ensure that cost
         information was comprehensively validated, as required by
         Department Manual 413.3-1, Project Management for the
         Acquisition of Capital Assets. NNSA personnel stated they had
         difficulty validating the costs at each of the sites due, in part, to the
         sites not following NNSA cost guidance. For example, the Kansas
         City Plant reported tooling costs in the "other" category in one
         estimate and in the "direct costs" category in another estimate.
         Further, the cost validation team only spent a limited amount of
         time at each site and was unable to confirm the accuracy of the
         data. The inconsistent and inaccurate costs information resulted
         from discrepancies and variations in contractor reporting systems.




Page 4                                                       Details of Finding
                                  Project Management Authority

                    The project manager lacked the necessary authority to ensure that
                    NNSA organizations and contractors met schedule and cost
                    milestones. For example, the project manager did not have control
                    over the work to be performed as called for under the Work
                    Breakdown Structure (WBS). A WBS defines the project's
                    total scope, establishes the relationship between schedule and
                    costs, and provides a mechanism for managing the overall project.
                    However, NNSA allowed each of the sites to maintain their own
                    WBS, which was not linked to the project manager's Master
                    Schedule. Consequently, the refurbishment project manager could
                    not easily assess site progress in meeting milestones in the
                    Integrated Master Schedule and could not readily determine what
                    resources were needed to complete the project. For example,
                    equipment delivery was under the control of other NNSA
                    programs and was affected by the budget of those programs. The
                    refurbishment project manager did not have the ability to ensure
                    that adequate resources were devoted to obtaining production
                    equipment in a timely manner.

National Security   Failure to complete the B61 refurbishment within the established
Implications        schedule and scope could jeopardize warhead reliability, as well as
                    delay other currently scheduled weapons systems refurbishments.
                    The lack of a validated cost baseline also impairs management's
                    ability to control costs.


RECOMMENDATIONS     We recommend that the Administrator, NNSA:

                       1. Improve project planning by:

                            • Validating and periodically reconciling Master and site
                              schedules;

                            • Validating cost baselines; and,

                            • Ensuring that project managers follow established
                              Baseline Change Request procedures in making scope
                              changes.




Page 5                                                            Recommendations
                2. Enhance project execution by providing project managers
                   with clear operational authority to ensure that all NNSA
                   organizations meet cost and schedule milestones.


MANAGEMENT   Management agreed with our recommendations for
REACTION     improving project planning and execution, yet is confident that the
             appropriate project management tools exist to allow them to
             successfully execute the B61 refurbishment, which is a high
             priority for NNSA and national security. Management’s response
             is included as Appendix 3.


AUDITOR      Management's comments are responsive to our
COMMENTS     recommendations. Despite the assertion that appropriate project
             management tools are in place for successful execution of the B61
             refurbishment, these tools were not fully effective. For example,
             management stated that it normally reconciled the Master and site
             schedules, however as previously noted, this was a manual process
             that often resulted in the introduction of logic errors. Until
             management fully utilizes effective project management tools, the
             risk will remain that the FPU may not be achieved within schedule,
             scope, and cost.




Page 6                                                              Comments
Appendix 1


OBJECTIVE     The objective of this audit was to determine whether NNSA would
              complete Alteration 357 of the B61 within the schedule, scope, and
              cost set forth in its project plan.


SCOPE         The audit was performed between August 2003 and May 2005, and
              examined the B61 Alteration 357 refurbishment activities. Audit
              work was performed primarily at Headquarters, National Nuclear
              Security Administration; the Albuquerque Service Center; Los
              Alamos and Sandia National Laboratories; and, the Y-12 National
              Security Complex.


METHODOLOGY   To accomplish the audit objective, we:

                 •   Reviewed applicable Public Laws, Department orders,
                     other Departmental guidance, related correspondence and
                     contracts;

                 •   Analyzed prior OIG and Government Accountability
                     Office reports;

                 •   Reviewed compliance with the Government Performance
                     and Results Act of 1993;

                 •   Analyzed key documents related to the B61 Alteration 357
                     refurbishment;

                 •   Interviewed key headquarters, field, laboratory and plant
                     personnel; and,

                 •   Consulted with Department officials regarding standard
                     project management practices.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the objective of the
              audit. Accordingly, we assessed the significant internal controls
              and performance measures established under the Government
              Performance and Results Act of 1993 and found that measures




Page 7                                    Objective, Scope, and Methodology
Appendix 1 (continued)

                    specifically related to the B61 Alteration 357 refurbishment were
                    not performance based. Because our review was limited, it would
                    not necessarily have disclosed all internal control deficiencies that
                    may have existed at the time of our audit.

                    We did not conduct a reliability assessment of computer-processed
                    data because we did not consider such data critical to achieving
                    our audit objective.

                    NNSA management waived an exit conference on August 3, 2005.




Page 8                                          Objective, Scope, and Methodology
Appendix 2


                                   RELATED REPORTS


OFFICE OF INSPECTOR GENERAL REPORTS

  •    Reestablishment of Enriched Uranium Operations at the Y-12 National Security
      Complex (DOE/IG-0640, February 2004). The audit found that Department efforts to
      reestablish enriched uranium operations within technical scope, cost, and schedule were
      hindered because an effective project management system was not utilized before or
      during the project.

  •   Refurbishment of the W80 Weapon Type (DOE/IG-0590, March 2003). This audit
      reported inconsistencies between the NNSA project plan and the sites' detailed plans;
      lack of change control or other means to ensure that the NNSA manager knows when the
      sites make changes that could impact cost, scope or schedule; and, design and peer
      review delays.

  •   The Department of Energy's Pit Production Project (DOE/IG-0551, April 2002). The
      audit found that the Pit Production Project experienced delays because the original
      schedule was too aggressive. Additionally, the program lacked a robust critical path
      linking required work to project milestones. Also, work packages were not fully
      integrated.

  •   Best Practices for Environmental Management Baseline Development (DOE/IG-0476,
      July 2000). Baseline development best practices include the verification of baselines to
      ensure they are accurate and supportable and that major changes were incorporated. This
      can be accomplished by the use of external validation, use of external cost estimators, use
      of cost contingency to measure risk, and updating baselines to reflect changes in scope,
      cost, and schedule.

GOVERNMENT ACCOUNTABILITY REPORTS

  •   NUCLEAR WEAPONS: Opportunities Exist to Improve the Budgeting, Cost Accounting,
      and Management Associated with the Stockpile Life Extension Program (GAO-03-583,
      July 2003). This audit found that all associated costs were not included with the life
      extension programs' FY 2003 budgets. Also, the NNSA accounting system did not align
      the programs and activities in order to provide the full cost of the life extension
      programs. Further, planning processes did not fully integrate the individual life
      extensions into an overall program, and there was not an adequate process for reporting
      cost and schedule changes against established baselines.




Page 9                                                                   Related Reports
Appendix 2 (continued)


  •   NUCLEAR WEAPONS: Improved Management Needed to Implement Stockpile
      Stewardship Program Effectively (GAO-01-48, December 2000). The audit found that
      coordination between the design laboratories and plants was weak. Additionally, there
      were no overall project plans, cost, and schedule baselines for the design process, and no
      overall baseline for the production processes.

OTHER REPORTS

  •   Progress in Improving Project Management at the Department of Energy, 2003
      Assessment (National Research Council, 2004). The report found that Department
      management did not have a consistent set of expectations about project management.
      Further, the Department invests little in project management human resource
      development compared to other federal agencies. The report attributed the slow pace of
      project management improvement to several factors, including the desire of Department
      personnel and contractors to be independent of oversight from Headquarters and the lack
      of management emphasis.

  •   Progress in Improving Project Management at the Department of Energy, 2002
      Assessment (National Research Council, 2003). The report noted that poorly planned
      projects were observed for which it was obvious that all of the requirements of
      Department Order 413.3 were not met. Specifically they noted that some projects were
      not using Earned Value Management Systems properly or at all. Changes in project scope
      were not recognized quickly.

  •   FY 2001 Report of the Panel to Assess the Reliability, Safety and Security of the United
      States Nuclear Stockpile (March 2002). The report notes that project managers do not
      have control over the resources needed to execute their projects and do not have decision-
      making authority for the projects.

  •   Improving Project Management in the Department of Energy (National Research
      Council, 1999). The report stated that baselines should be set when 10 – 30 percent of
      design is completed and should be validated by an independent review. Projects should
      have contingency for both cost and schedule. Further, the report found that the project
      manager should have control of the budget, schedule, and contingency for the project.




Page 10                                                                    Related Reports
Appendix 3




Page 11      Management Comments
Appendix 3 (continued)




Page 12                  Management Comments
                                                                    IG Report No. DOE/IG-0697


                             CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.

Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585
                                  ATTN: Customer Relations
If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

      Your comments would be appreciated and can be provided on the Customer Response Form.
